  ~~~   ~~~ :::           :::            ~~~~~            . '
                                                      ~~~~~         ~~~         ..
                                                                                ~~~                  ., . ::q




An OvervieW





                                                 C)fflce      of    Inspect()r Get1                      tClI
                                                 QJfici3, oiEvaluation. a':dll1                      tioQ

                  :/:H:         :Ki:i:              fJ;   mhm mKE         :Hm         ti: ifW!'t   W#W          :n:::
  .., . .......
 .....
.....
.....
 ....
... ...
    ~~~ "'...
    .. ..
 .....    :::::::::
     ' ,, '  ' '        ' ..'...
                    .....
           .....,........,
                   .....
                    .....
                    ..,..,
                      ....        ....
                                  ..,
                              " ."...."
                             ...
                              ...  ....
                                   ..,
                                    ....
                                  ...
                               ::::
                                ~~~~~~~
                                    ':::::      ..........
                                       .,....", ....
                                                  ....
                                        '. ,, " '....
                                                    ... .....".,
                                                      ,.........
                                                            ~~~.
                                                           ..,  .,
                                                         .' .,.....
                                                             .... ...
                                                            .....
                                                             ....
                                                            .....~~~   .,...,
                                                                    . ....,
                                                                   .. .....
                                                                        ".....
                                                                       .....
                                                                  . .'~~~
                                                               .....   ..,..,
                                                                        ....
                                                                        ",.,
                                                                        '       ".....
                                                                          ..,. ...,
                                                                              .. .'.
                                                                              ,.    ' ...
                                                                                   -..
                                                                                     .    ....
                                                                                            ' .'....
                                                                                      ,........
                                                                                           ..
                                                                                           .... ..".,
                                                                                                   ... ......
                                                                                                       ,....,
                                                                                                       .......
                                                                                                   ",.".",
                                                                                                       .,.."
                                                                                                       ,..... ..,..
                                                                                                                 ..
                                                                                                             ,..,..  .'"
                                                                                                                  .....
                                                                                                                  ...,.
                                                                                                                 ......
                                                                                                              ..,.....
                                                                                                                 ,....
                                                                                                                    :~:. .. . .............
                                                                                                                  .".....
                                                                                                                    .....         .....
                                                                                                                              ~~~~~
                                                                                                                                 .,..
                                                                                                                                 . ,.
                                                                                                                                 '  ...  .....
                                                                                                                                    ." ....,..
                                                                                                                                        ,
                                                                                                                                        ....... .",..""..,.......,.                     .,..,.,.,.""""",.""""""""",...""".
                                                                                                                                                 ......"......................,......,....,.............,.....,...,........"....,
                                                                                                                                           .......,..,............,.....,..,..........,........."......,......,..,............
                                                                                                                                   ...........,.."..
                                                                                                                                                '''.''''.''''''''''''
                                                                                                                                          ' . .' .'~~~
                                                                                                                                                     ::'~~~
                                                                                                                                                          ..,....
                                                                                                                                                               .",
                                                                                                                                                               ..
                                                                                                                                                                .,..
                                                                                                                                                                 ... ~~~~
                                                                                                                                                                   ........
                                                                                                                                                                    """'''''''''
                                                                                                                                                                    ....,.......
                                                                                                                                                                     .",.
                                                                                                                                                                     .........  ....... ....,.,...,..,......"..,..............,............
                                                                                                                                        .,...........,...,.........,.-...,...,.....,.......,..,.......,..,..,..,..,..,..,...
                                                                                                                                                  ....... .........._-.......................................................
                                                                                                                                                                      .......,...,.,...
                                                                                                                                                                               '.....--....,-..,...,..,.......,..,...."..,..,...
                                                                                                                                                                              ~~~
                                                                                                                                                                                "'.
                                                                                                                                                                     .,..,........           '''''''''''''''''''''''''''...................... ...,........
                                                                                                                                                                                                                                          "',        ..,...
                                                                                                                                                                                                                                                         ...
                                                                                                                                                                                                                                                         ~~~                         ~~~




l!il:!li    ::lilll,
     :::ii!III_        !I:I!::'    ::I:   :::!!I ii:::::::i!:iii::                                 illliI::i::iil,
                                                                                I::i':I::I::I:i:II!:!:::
                                                             :I:lii:::I::::illiliillllli                              ::I!II'
                                                                                                                :lli:::'             il:iii' ::"i::::":               iili:!i' i:l:i
                                                                                                                                                                                   II, :li' lllill'
                            11:'                                                                                                                     111ii!:!I'   I:II,
                                                                                                                                                         liii!l:il:i::i       :ili    ill:'      !liliillliiIIIIIIJI!111111:1111:
                                                :II:                                                                          ::iiiil:i                                                                              1:!I:IJI:I:II!iill:i!::lilillillilliilllllll:1:llillllll!II:IIIIIIIIIIiilli:illiJllllliillil!III!IIi,1::IIIIII!:
                                                                                                                                                                                                                                                                                            IIII!III:JiJ:i!:i!!lillilllll::ill!ilil
                                                                                                                                                                                     . ""'''''''''''''.'''.'''''''''''---''0---'--''-'





     An Overview




       Richard P. Kusserow
       Inspector General
                                                                                                                                                                                                                                           :r:

     OEI- 12- 89- 01320                                                                                                                                                                                                                                         FEBRUARY 1990
PURPOSE

        This report , and related technical reports , describes the operation of a sample of
        mature, well-regarded and comprehensive pre- JOBS work programs for AFC re­
        cipients and the insights of the admnistrators of those programs. Our purose
        was to provide infonnation useful to State and county welfare agencies imple­
        menting JOBS.


BACKGROUND

        The Famiy Support Act of 1988, requires the States to implement a new, more
        comprehensive work program for Aid to Families with Dependent Children
        (AFC) recipients. This program , called Job Opportunities and Basic Skills or
        JOBS , wil replace the current AFC Work Incentive (WN) programs. A few of
        the highly regarded WI and WIN demonstration programs were used as models
        for JOBS.

        The Federal Government will fund JOBS as a capped entitlement at an enhanced
        AFDC matching rate. Federal expenditures for JOBS in Fiscal Year 1989 were
        capped at $600, 000 00. The cap rises each year until Fiscal Year 1995 when it
        wil be $1 300 000, 000. After that funding is expected to be somewhat lower.


        All States must implement the JOBS program by October 1990. Upon approval
        of its plan , a State may implement its program as early as July 1 , 1989. Manda­
        tory paricipation rates for AFDC recipients wil be expected of the States. Rates
        wil increase from 7 percent in 1990 to 20 percent in 1995.


        JOBS includes four mandatory components which all States must offer. These
        are: (1) education , (2) job skils training, (3) job readiness activities , and (4) job
        development and job placement.

        The States must also offer two of the following: (1) group and individual job
        search , (2) on- the-job training, (3) work supplementation , or (4) the Community
        Work Experience Program (CWEP) or some other work experience.

        States must provide supportive services to their JOBS paricipants. These ser­
        vices must include child care , transportation , and compensation for some work-re­
        lated expenses. States may use JOBS funds to provide case management
        servIces.




Working Toward JOBS                         Executive Summary
        In addition to these components, States are required to (1) inform all AFC recipi­
        ents of the services available under JOBS , (2) perform an initial assessment of
        each JOBS paricipant, and (3) work with each JOBS parcipant to prepare a plan
        of action leading to employment.

METHODOLOGY

        We selected eight States which had a matur, comprehensive and well-regarded
        AFC work program prior to JOBS. These programs were also selected because
        they var by certain characteristics (i.e., program strcture, geogrphy, employ­
        ment and training services provided). The paricipating programs are: California
        Delaware , Florida , Massachusetts , Michigan , Nebraska , Oklahoma and Washing­
        ton. Because the program in California is county run , the County of San Diego
        was also invited to participate.

        Data collection for this study was done from April to September of 1989. The in­
        formation in this overview report, and related technical reports , is based on pre-
        JOBS work programs for AFDC recipients.

        Site visits were conducted at the Massachusetts, Oklahoma, Washington , and
        County of San Diego programs. All of the paricipating programs completed ex­
        tensivemail survey guides.



        The directors of the paricipating programs took par in an OIG sponsored confer­
        ence , August 1- , 1989. At this conference , which utilized a varant of the focus
        group discussion method, the program directors discussed problems encountered
        lessons leared and model practices.

        We consulted regularly with an advisory group formed of representatives from the
        Family Support Administration , the Offce of the Assistant Secretar for Planning
        and Evaluation , and the Office of the Assistant Secreta for Management and
        Budget.


FINDINGS

        In choosing the information to highlight in this overview report , we concentrated
        on findings which represent trends visible in a significant number of the programs
        studied. We also chose to direct most of our attention to issues which the Family
        Support Act leaves to the discretion of the States.

Job readiness is integrated into other activities.
        The progrm administrators defined job readiness activities as those which teach
        life skils and specific job   search or job retention skils.   They feel that it is not a



Working Toward JOBS                          Executive Summary
       discrete activity, but is integrated through every component. Group job search
       usually contains a wide spectrm of job readiness activities. The program admin­
       istrators report including job readiness activities in orientation , education , job
       skills traiing and work supplementation.

Group job search is the best regarded of the JOBS components.
       All of the programs studied offer group job search. The majority of progrs
       namng their most effective and most cost effective components, named group job
       search.

       The specific form of group job search vares.  Usually it is divided into two sec­
       tions: (1) the discussion of job search and work related issues, and (2) a super­
       vised job search including calls to employers from a telephone bank. Many of the
       group job search components emphasize building self-esteem , personal drve and
       developing supportive relationships between the panicipants.

Case management is also highly regarded.
       All of the programs studied employ a case management approach. When we dis­
       cussed case management with the program administrators, they emphasized four
       basic concepts: accountability, continuity, encouragement , and empowerment.

       Each of the case management models includes a specific case manager assigned
       to a panicipant on an ongoing basis. The case manager is responsible for tracking
       and encouraging the participant s progress and assuring that the paricipant re­
       ceives needed services. Beyond this, however, there is wide varation in the defi­
       nition and implementation of case management.

The majority of the programs emphasize local Ie vel flexibilty.
        Only one of the State programs studied, California s Greater Avenues to Indepen­
        dence (GAIN), is actually run by local level government. However, the majority
        of the other progr..ms studied, including all in the heavily populous States, encour­
        age local level variation by allowing local State welfare offices discretion in how
        they implement the work program.

These programs acknowledge the importance of the line worker and strve to enhance
        their effectiveness.


        The program administmtors stressed that the line worker can " make or break" the
        program. The progr..m administrators considered attitude central to the success
        of a line worker. They try to create a proper attitude through a varety of meth­
        ods , including recognizing achievement and giving awards.




Working Toward JOBS                       Executive Summary                                   iii
. .. .. . . ., . . .
              .................... ................-...................................
                                                                               . ..:.:.:-:-:.:.;.:.:.:.:.;-:-:.:.;.;.
                                                            . . . .:.:.;.;.;.:.:.                             .. ..............................................-----
                                                                                         .. .. .. .. ...;.;.:.:.:.:.;.
      ;..:.;.:.:.:.:.:.;.:.:.;.:.:.:.:.;.;.:.:.:.:-:.:.:.;.:.:.:.:-:.:.:.;.;.;.;.:.:.:.:.:.:.;.;.;.;.              .. ;.;.:. .. .. .. .. .. .. .. .. .. .. .. . .. ....-                                             ..... , ,. . .. ,... .., .. . .,. ....,.,."
                                                                                                                                                                                                  .........................................                  ......          ..,,'.'"
                                                                                                                                                                                                                                                             ... .. .. .., .,.."    ..,. .,., ,.,..,...,,...,., ...,

                                                                                                                                                                                                                                                                                ...,.._.....-.............
                                                                                                                                                                                                                                                                       . ...................-.................
                                                                                                                                                                                                                                                                  . ....
                                                                                                                        .. .;.:.:.:.;.:.:.;..;.;.:.:.:.:.:.:.:.;.;.:.:.;.:.;.;.;.;.;.;.:-;.:.;-;.:.:.;.;.:.:-:-;.:.:.;.:.;.:.:.:.:.:.:.;.;.;.:.;.:.;.:.:.;.;.:.:.:.;.:.:.:.:.:.:.:.;.:.;..:.:.;.:.:.:.:.:.;.:.;.:.:.;.:-.:.:.;.;.
                                                                                                                                                                                             .. ..    .. .. .. .. .. .. .. .. .. .. .. .                                    . . . . .;.:.;-:.
                                                                                                                                                                                                                                                                           .:.;.;.:.:.;.:.;.:.:.;.;.:.:.
                                                                                                                                                                                                                                                                                                    . -:-:.:.
                                                                                                                                                                                                                                                                                                         . -;.-:.-:.
                                                                                                                                                                                                                                                                                                              . .;.;..;.:.
                                                                                                                                                                                                                                                                                                                        . . .;-. . . .;";.;.;.:.
                                                                                                                                                                                                                                                                                                                                      .          .;. ..:.




       EXECUTIVE SUMMARY

       INTRODUCTION                                                                                                                                                                                                                                                                                                                     . 1





                                 PURPOSE                                                                                                                                                                                                        . . . . . . . . . . . . . . . . . . . . 1





                                 BACKGROUND                                                                                                                                                                                                                            . . . . . . . . . . . . . . . 1





                                 METHODOLOGY.




                                 PRODUCTS.




        FINDINGS.                                                                                                                                                                                                        . . . . . . . . . . . . . . . . . . . . . . . . . 7




                                                                                        The programs studied offer a wide range of
                                                                                        activities. Most offer a wide range of supportive
                                                                                        services. ....................,.......................'"                                                                                                                                                                                         ,7

                                                                                        Job readiness is integrated into other services. It
                                                                                        not a discrete, easily defined activity.
                                                                                        Group job search is the best regarded of the JOBS
                                                                                        components. .                                                                                                                                                                      ...............,.9

                                                                                        Case management is also highly regarded. .
                                                                                        The majority of the programs emphasize local level
                                                                                        flexibility and input. .

                                                                                        The program administrators stressed the
                                                                                        importance of constructing work programs
                                                                                        relation to specific State and local characteristics. . . . . . . . . . . . . . . , . , . , 12

                                                                                        These programs acknowledge the     importance of
                                                                                        the line worker and strive to enhance their
                                                                                        effectiveness. .,.............,.,.......,.....,.."                                                                                                                                                                                    ." 13




        APPENDIX                                   A.................................                                                                                                                                                                                                                                              A- 1




         Working Toward JOBS                                                                                                                         Table of Contents
i__

PURPOSE

       This report , and related technical reports, descrbes the operation of a sample of
       mature , well-regarded and comprehensive pre- JOBS work programs for AFC
       recipients and the insights of the admistrators of those programs. Our purpose
       was to provide infonnation useful to the State and county welfar agencies
       implementing JOBS.


BACKGROUND

History of Work Programs for Recipients of Aid to Familes with Dependent Children
       The idea that Aid to Families with Dependent Children (AFC) should be
       temporar assistance for families on their way to self suffciency is not new.
       1962 , the Community Work and Training Program fIrst brought the Deparment
       of Health , Education and Welfare (HW), precursor to the Deparment of Health
       and Human Services (HS), together with State and local welfare agencies in an
       attempt to provide work for welfare recipients. In 1967 , this program was
       replaced by the Work Incentive (WN) program. All States were required to
       implement WIN programs to be jointly overseen by HEW and the Deparment of
       Labor (DOL). Although some successes were achieved under WIN , many felt
       that the program was too limited and did not allow enough flexibility.

       In 1982 , States received the option to create WIN Demonstration programs (WIN
       Demos) as an alternative WIN. Under the WIN Demo , the State welfare
       deparent is given sole authority for running the work program. States can
       devise specific processes and services adapted to their own circumstances and
       priorities. Before the July 1989 initial implementation of JOBS , WIN Demo
       projects were run by 26 States.

       Before the initial implementation of JOBS, slightly more than half of the States
       were also operating Community Work Experience , Employment Search Program
       and/or Work Supplementation with AFDC funding. These welfare work
       programs did not fall under the same authority as WIN. These programs were
       under the authority of and funded by the AFDC program.

The Family Support Act of 1988
        Over time , the funding and support available to these work programs lessened.
        Although many States were recognized as running model programs , other State
        programs were thought meager and ineffective. Some interested Federal and




Working Toward JOBS                          Introduction
           State offcials raised concerns that AFDC, and most WIN and WI Demo
           programs, were sustaning rather than alleviating povert.

           In 1985 and, 1986 the movement toward welfar refonn accelerated. In July
           1985, the American Public Welfar Association published " One Child in Four
           which called for a re-evaluation of the nation s welfar program and commtment
           to helping the poor. Fonner President Reagan voiced simlar concern in his 1986
           State of the Union Address and asked Congress to work with him on an overhaul
           of AFDC priorities. The Governors, workig through the National Governors
           Association , expressed their interest in refonnng the welfare system to help
           AFC recipients move toward self-sufficiency.
           Congress , the Admnistration , and the States worked together to refonn the
           welfare system. The resultant legislation , the Famly Support Act of 1988, aims
           to refonn AFDC income maintenance into a program that can enable welfare
           recipients to become independent. The Act made many important amendments to
           the AFDC program , including strengthening child support enforcement , requiring
           transitional day care and extended Medicaid benefits for clients moving from
           AFC to self-sufficiency and establishing the Job Opportunities and Basic Skills
           Traning (JOBS) program.


Job Opportunities and Basic Skills (JOBS)
           The Family Support Act of 1988 mandates that the earlier work programs be
           replaced by the new, more comprehensive , JOBS program.

The Federal Role
           The Federal Government will fund JOBS as a capped entitlement at an enhanced
           AFDC matching rate. The Act caps Federal expenditures for JOBS in Fiscal Year
           1989 at $600,       000 and raises it each year until Fiscal Year 1995 when it hits a
           high of $1 , 300, 000, 000. After that funding is expected to be somewhat lower due
           to the number of AFDC recipients who wil already have moved into
           employment.

           The Federal oversight role in JOBS wil be perfonned through the HHS Family
           Support Administration (FSA). The FSA is responsible for (1) issuing regulations
           implementing the JOBS progrm , (2) approving State plans , (3) assisting and
           overseeing State implementation , and (4) coordinating with the DOL and other
           Federal agencies involved in other work and education programs.

Requirements for States
Orientation/Assessment/Employability Planning: 
       Under JOBS, States ar required to (1)
           infonn all AFC recipients of the services available under JOBS; (2) initially as­
           sess the educational, child car, medical, and other support service needs of each
           JOBS program parcipant, as well as the paricipant s job skills, work history and



Working Toward JOBS                                Introduction
            employabilty; and (3) work with each JOBS parcipant to prepar an employabil­
            ity plan. The employability plan wil establish an employment goal and specify
            the JOBS progr activities and supportve services which wil be offered to help
            the paricipant achieve the goal. To the gratest extent possible, the employability
            plan should reflect the desires and goals of the parcipant. It should also take
            into account available JOBS resources and local employment opportunities.

Required Components: 
          To addrss these assessed needs the States must offer (by provid­
            ing diectly or contracting for)   all of the following JOBS activities and services:
            (1) education , includig high school or equivalency, basic, remedial and English
            as second language; (2) job skils training specific to jobs available in the local
            marketplace; (3) job readiness activities which help parcipants gain social skills
            and atttudes necessar for work; and (4) job development (identifying and en­
            couraging the creation of job openings) and job placement (referrals to specific
            available jobs).



Optional Components: 
        The States must also offer at least two of the following: (1)
            group and individual job search to assist paricipants in seeking employment; (2)
            on- the-job training in which the JOBS program parally subsidizes a paricipant
            wage durng a limited training period; (3) work supplementation programs under
            which the State pays employers all or par of the paricipant s AFC benefits to
            subsidize their salar for some limited amount of time; or (4) the Community
            Work Experience Program (CWEP) or some other work experience in which
            AFC recipients work , without pay, for non-profit organizations or government
            agencies. In addition to the above requirements, States may choose to offer addi­
            tional education (post-secondar) or any other activities that are allowed by regu­
            lations.

Case Management: 
        States ar not required to implement case management , but may use
            JOBS funds to provide case management services. Although specific definitions
            of case management var, it is generally understoo to include an ongoing rela­
            tionship between a worker and a paricipant which lasts the entire time a parci­
            pant is in the program. The worker is generally responsible for tracking the client
            and helping them access needed services.

Supportive Services: 
   States must provide supponive services to their JOBS paricipants.
            These services must include child car , transportation , and compensation for
            some work-related expenses.

Minimum Income: 
       States may not require that a welfare recipient accept a job which
            would result in a net loss of cash income unless the State offers a supplement
            which brings the total income to at least the fonner benefit level.




 Working Toward JOBS                                Introduction
Target Populations: 
          The JOBS program tagets for paricipation: AFC applicants or re­
                  cipients with a long- tenn history of welfare receipt, parents under 24 without a
                  high school diploma or work experience in the previous year, and members of a
                  famly in which the youngest child is within 2 years of being ineligible for AFC.

Participation Rates: 
          Mandatory minimum parcipation rates for AFC recipients wil
                  be expected of the States, with some exceptions. Rates wil increase from 7 per­
                  cent in 1990 to 20 percent in 1995.

Implementation:             All States must implement the JOBS program by October 1990. Upon
                  approval of its plan , a State may implement its program as early as July 1 , 1989.
                  Each State JOBS program must be operating statewide as of October 1992.

Interaction with other Federal , State and Local Resources:  States may not use JOBS
        monies to fund activities which are already available from other Federal , State or
        local government sources. For example, JOBS money can not be used to pay for
        high school classes , equivalency classes where those are aleady avaiable
        through local public education.

                  For many States, implementing JOBS wil involve entirely new programs or
                  major enhancements of existing ones.


METHODOLOGY

                  We selected eight States and one county which had comprehensive, mature and
                  well-regarded work programs for AFDC recipients prior to JOBS. These
                  programs were also selected because they vared by certain characteristics such as
                  services offered and client charcteristics. We conducted site visits at four of the
                  progrs and conducted a mail survey of all of the programs. All of the program
                  directors attended a 3- day series of focus group discussions on work program
                  issues. While conducting this study we regularly consulted with experts within
                  the Federal Government and outside organizations.

                  Data collection for this study was done from April to September of 1989. The
                  infonnation in this overview report , and related technical reports , is based on
                  pre- JOBS work programs for AFDC recipients. As these progrms have
                  converted to JOBS, they may have made some changes to meet JOBS legal and
                  regulatory requirements. Where possible , we have noted the changes the program
                  administrators anticipated at the time of our data collection.

Site Selection
                  Eight States were selected through a two-tier process. The first tier was designed
                  to insure that the programs studied would all be mature programs from which
                  model practices could be derived. Our research showed that there were 20 States



 Working Toward JOBS                                    Introduction
          that met the criteria established for the ftrst tier. The second tier reftned that list
          into a ftnal sample of eight progrs which are diverse in strcture and
          cirumstance. This was done so that study findings would have meaning for
          States with disparate goals, circumstances and resources. For an in- depth
          discussion of the selection process , please see appendix A.

          The States parcipatig are: California, Delaware, Florida, Massachusetts,
          Michigan, Nebraska , Oklahoma and Washington. Because the progr
          California is county run , the County of San Diego was also included to provide
          the local level implementation perspective.

   Site Visits and Mail Guides
           Site visits were conducted at the Massachusetts, Oklahoma, Washington and San
           Diego County programs. While on site we interviewed State program


guides     admnistrators, local welfare offce staff, training contractors, paricipating
           employers, and paricipating AFDC clients. All of the paricipating programs
           completed extensive mail

           characteristics.
                                             designed to detennine program strcture and


   Focus Group Discussion
           The adnistrators of the progrs studied parcipate in an OIG spnsored , 3- day
           conference caled "Working  Toward JOBS" . The conference used a varant of the
           focus group discussion method to elicit the progr diectors ' views on the effective
           adnistration of work programs. Discussions centere       on problems encountered,
           lessons leared and model    practices. The speific topics discussed were drwn from
           the site visits, and meetings with outside interest grups and relevant offcials within
           the Deparnt. The topics discusse included: strtegies for encourging parcipant
           success, coordnatig with other programs, identifyig and assistig potential
           employers, stamg issues, and establishing a work progr.

   Contacts with Experts in the Field
           Outside consultation and advice is an integral par of this project. Input has been
           solicited from the American Public Welfare Association (APWA), the National
           Governors Association (NGA), and other interested groups.

           Relevant actors within the Deparment were asked to paricipate in a JOBS
           Advisory Group (JAG) established to give expen counsel at imponant points
           within the inspection. Members of the JAG are drawn from the Offce of the
           Assistant Secreta for Management and Budget , the Offce of the Assistant
           Secretar for Planning and Evaluation , and the Office of Program Evaluation and



guides.    the Office of Family Assistance within the Family Suppon Administration. The
           JAG met to provide input during initial research , to assist in site selection , and to
           offer suggestions for topics to be covered in the mail
                                                                            The JAG also




    Working Toward JOBS                            Introduction
                                                                                               , "





           suggested topics for focus group discussions at the conference and commented on
           draft reports.


PRODUCTS

           In addition to this overview report, we have prepared technical reports profiing
           each of the parcipating programs. While this report contains infonnation on the
           practices common to several of the programs, the profies provide detaled
           infonnation about each of the programs and their unique practices and
           experiences. The profiles include an activity listing which describes all of the
           program services and how they ar provided. The profies also include an
           overview statement submitted by the program admnistrator and sample
           documents. The profiles ar entitled:

The California Greater Avenues for Independence (GAIN) Program                       (OEI- 12- 89- 01321);

The Delaware First Step Program 
                (OEI- 12- 89- 01322);

The Florida Project Independence Program 
                 (OEI- 12- 89- 01323);

The Massachusetts Employment and Training (Ef) Program                       (OEI- 12- 89- 0l324);

The Michigan Opportunity and Skils Training 
                 (MOST) Program (OEI- 12- 89- 01325);

The Nebraska Job Support Program 
                 (OEI- 12- 89- 01326);

The Oklahoma Employment and Training Program 
                      (OEI- 12- 89- 01327);

The Washington Opportunities and Family Independence (FIP) Programs
      (OEI- 12- 89- 01328); and

The County of San Diego Greater Avenuesfor Independence (GAIN) Program
      (OEI- 12- 89- 01329).

            We have also published a technical repoI1 summarzing the conference Working
            Toward JOBS: Conference Summar " (OEI- 12- 89- 00920). The conference
            summar repOI1s               of the parcipating program managers on such
                                        the opinions
            subjects as: encouraging voluntar parcipation , staffng, and encouraging client
            success.




Working Toward JOBS                                        Introduction
       Our review of these work programs has generated a grat deal of information. In
       choosing the information to highlight in this overview repon we concentrated on
       fmdings which represent trends visible in a significant number of the programs
       studied. Information on the unique features of each of the programs is available
       in the technical repons.

       Given that the purpose of this effon is to provide useful information to States and
       counties developing JOBS programs , we also chose to diect most of our attention
       to issues which the Famly Suppon Act leaves to the discretion of the States,
       rather than aras where State action is diectly prescribed by the Act.

The programs studied offer a wide range of activities. Most offer a wide array of
       supportve services.
       As required under JOBS, almost all of the programs studied begin with orienta­
       tion , assessment and employability planning. They also offer a varety of educa­
       tion , job services and skills training activities.

       Almost all of the programs include adult basic education and high school classes.
       Most also offer post-secondar education and about half offer English as a second
       language. Among the job services, group job search is offered by all of the pro­
       grams and almost all of the programs include individual job search , job placement
       referrals, and job development. Nearly all of the programs offer the following
        skils training services:   community work experience, specific skils training, and
       on the job training. Slightly more than half of the programs offer work supple­
       mentation. Three of the programs offer post- placement services in which they
         check in " on employed fonner parcipants.

        Child care and transponation ar offered universally. Many of the programs paid
        for work and training related expenses , such as safety equipment or uniforms. A
        few also offer medical expenses, necessar for training or work , which are not
        covered by Medicaid. These include pre-employment physicals, and sometimes
        needed optical or dental services. A small number also pay for personal counsel­
        ing if it is necessar to help a participant or their family adjust to employment.

Job readiness is integrated into other services. It is not a discrete , easily defined
       activity.
        The Family Suppon Act requires that State JOBS progrs include job readiness
        activities. The implementing regulations define job readiness activities as " activi­
        ties that help prepare parcipants for work by assuring that panicipants ar famil-




Working Toward JOBS                             Findings
                                                             , "





       iar with general workplace expectations and exhibit work behavior and attitudes
       necessar to compete successfully in the labor market.

       At the   Working Toward JOBS 
conference we asked the program admiistrators to
       defme job readiess activities in detail. While some expressed uncertainty, many
       expressed agreement with the definition given by the Michigan program admis­
       tttor:
                 It's a combination of abilty-to-cope kinds of skils:   counseling,

                family management, self-esteem, self confidence, communications
                skils, money management, parenting. The whole mileu of social
                 skils. Getting along in   the work place for people that haven t and
                 combining that with essential remediation to bring people whose
                 education levels were not at a point where they would be
                 competitive for whatever scarce jobs were in the community and

                 tying that whole package together and that becomes the job
                 readiness activities.

       Other program directors felt that job readiess was better described as teaching
       specific job and job search related skils and attitudes: such as interviewing tech­
       niques , proper work attitudes , fillng out an application , etc. Elaborating on this
       point , the Oklahoma program administrator said You teach them what the sys­
       tem is, how work is, what the expectations of work are , you help them to under­
       stand the impact of not working on their lives...

       The program administrators agreed that job readiness is not a discrete activity, but
       is ideally integrated through every component. According to the Washington pro­
       gram admistrator: " Job readiness activities are an ongoing piece of the program
       for the duration of the time that your client is with you ... It isn t a discreet activ­
       ity, its something that goes on throughout the process in order to help a client be
       ready to go to work when the training or whatever is completed.

        Group job search usually contains a wide spectrm of job readiness activities. It
        is the component in which job readiness issues are most commonly addressed.
        Any group job search wil deal with the basic skils needed to perform a job
        search. Many also emphasize life skils , often using a group dynamic approach to
        increase self confidence.

        Job readiness activities are also incorporated into a number of other program com­
        ponents. In Oklahoma job readiness is combined with orientation in five , four-
        hour sessions which cover: program information , exercises to build
        self-confidence , employer expectations, interviewing, completing job applica­
        tions, setting goals and managing home and work. Life skils are also incorpo­
        rated into Delaware s adult basic education program.




Working Toward JOBS                               Findings
       Some programs combine job readiness with job skils training. One traiing con­
       trctor in Massachusetts runs a mock company for 2 weeks of each training ses­
       sion. This enables   parcipants to get a sense of how a company operates and to
       understand work world pressurs.



       One of the work supplementation progrs in Massachusetts begins with 2 weeks
       of job readiness training which includes setting long term goals, balancing work
       and famly, self confidence, and working against the expectation of failure.

Groupjob search is the best regarded of the   JOBS    components.
       Group job search is the only optional JOBS activity offered by all of the programs
       studied. We asked each of the programs studied to name the components they
       considered to be the most effective in placing paricipants into unsupported work
       and the components they considered most cost effective. Of the five programs
       namng their most effective component, four named group job search. Of the five
       programs which named their most cost effective components, four named group
       job search. We also asked each of the program administrtors to describe a model
       practice or procedure, three described their group job search.

       The program administrators offered a varety of reasons for placing emphasis on
       group job search. Some of the program administrators cited placement rates. For
       instance, the Kent County, Michigan group job search regularly maintains a 35 to
       50 percent obtained employment rate. A few of the program administrators em­
       phasized that these significant placement rates corne after low program dollar in­
       vestment. Group job search simply costs less than a training or education activity,
       and yet it results in significant numbers of placements. A few of the program ad­
       ministrators valued group job search as an early activity because it allows the
       local labor market to detennine a paricipant s job readiness and need for further
       training.

       The specific form which a group job search takes vares; even the name vares
       with some programs callng it group job search , others job workshops , and still
       others job club. The programs which offered detailed description of their group
       job search usually divided the component into two pars. In the first par work re­
        lated issues are discussed in a classroom or roundtable setting. These issues in­
        clude: identification of skills and interests, self confidence , job application
        techniques , labor market characteristics, personal grooming, work place behavior
        interviewing, identifying job leads , and job retention. The second par consists of
        supervised job search , with paricipants making calls to employers, applying for
       jobs and doing interviews.

        Many of the group job search components emphasize the interrelation of parici­
        pants. The sessions include a great deal of group discussion. Paricipants are en­
        couraged to give feedback to one another on their efforts, to discuss problems and



Working Toward JOBS                            Findings
                             ...                          ,"       , "
    ...




       challenges, and offer each other encouragement. The Nebraska program admnis­
       ttator stated, " The    group dynamcs methodology is very important in the work­
       shop (group job search). It helps the clients build the self-esteem that many lack.
       This approach also enables the clients to build their interpersonal skills, which
       wil be needed in the workplace. Most important to this methodology, the parici­
       pants in the workshop have the opportnity to develop frendships which can be a
       source of support in dificult times.

       The importance of building self-esteem and personal drve was emphasized by
       many of the program admisttators. The County of San Diego program adminis­
       ttator reinforced this point by saying " The biggest par of what goes on there (in
       group job search) for 99. 9 percent of those folks is the issue of motivation and
       self esteem.

Case management is also highly regarded.
       All of the programs studied employ a case management approach. When we dis­
       cussed case management with the program admnistrators, they emphasized the
       importance of case management as a way to achieve four basic goals: account­
       ability, continuity, encouragement , and empowerment. In the words of the
       County of San Diego program administrator:

               I think the concept of a single case manager has to do with you
               need to have somebody accountable from the staff side of the
               house making sure that these people get assessed, that they are
               doing what they are supposed to be doing. They can provide
               services, counseling, advice , encouragement and enthusiasm.
               They are a cheerleader. It s a relationship. You can t be passing
                this thing         It gets lost in the translation 
             So having somebody
                who can do the whole gamut is a key ingredient.

       Accountability assures that there is one person who knows that it is their job to
       help meet the needs of a specific paricipant. Continuity enables the case man­
       ager to have a long term understanding of the needs of the parcipant and to de­
       velop a relationship with the paricipant. It allows them to be , in the words of the
       Washington program administrator a constant force in a person s life.

       Many of the program administrators spoke of the importance of encouragement
       stressing how that increases self-esteem and empowers the parcipant. Elaborat­
       ing on this point , the Delawar program administrator said that the case
       manager s role is " empowering that client, acknowledging when that client has
       been successful in overcoming an obstacle ... encouraging them to develop the
       strengths that they aleady have . Another aspect of empowerment was discussed
       by the California program administrator We teach them how to do it and then
       they go out and do it. ... That s what life is about ... You make people self-suffi-




Working Toward JOBS                                             Findings
       cient in whatever regard it is, whether its child car or   any   of the mechanisms that
       go wrong in a person s life so they can t go to ajob.

       Each of the. case management models includes a specific case manager assigned
       to a paricipant on an ongoing basis. The case manager is responsible for tracking
       and encouraging the paricipant s progress and helping the paricipant access
       needed services.

       Beyond this, however, there is wide varation in the definition of case manage­
       ment and its effective implementation. In many of the programs the case man­
       ager is responsible for conducting the assessment and working with the
       parcipant to develop an employabilty plan. In some programs the case manager
       acts as a broker, helping the parcipant identify and access varous services. In
       some models a case manager interacts with other staff (such as an employment
       and training or child care specialist) who also provide assistance and encourage­
       ment to the paricipant on an ongoing basis. Some programs see the case man­
       ager as an advocate , representing the paricipant within the AFDC system.

The majority of the programs emphasize local level flexibility and input.
      Only one of the State programs studied, California s GAIN , is actually run by
      local level government. However, the majority of the other programs studied , in­
      cluding all in the heavily populous States , encourage local level varation by al­
      lowing local State welfare offices discretion in how to implement the work
      program. This allows local level offces to fit the program to local labor market
      and client needs. These can var greatly as most States include both densely pop­
      ulated , developed areas and remote rural areas.

        One program, ET Choices in Massachusetts, changed from a centrally run pro­
        gram to an emphasis on local level input. When we asked why, the program ad­
        ministrator responded: " It was staring not to work. We needed the help. Local
        offices were the ones that were making the program work and they were feeding
        back to central saying you ve got to get out of the ivory tower and into the field,
        and we did. " The program administrator from Michigan reinforced the impor­
        tance of local level input by saying, " I don t think there is any question but you
        have to have local investment. The practitioner level people have to be invested
        in development , planning and awareness of what the overall objectives are. ...
        Local people have the best feel for what their communities ar able to do. It'
        easy to tr to mandate things but then you find out it just doesn t work. There has
        to be real local investment and incentive to be involved.

        California s GAIN progrm is administered at the local level by the county wel­
        far deparments, although the basic strctur of the program is set at the State
        level. Before counties implement their GAIN programs, they are required to de­
        velop a plan that specifies the arangement and method by which services wil be



 Working Toward JOBS                             Findings
       provided. The county GAIN plan is approved by the County Board of Supervi­
       sors and then submitted to the State Deparment of Social Services for their ap­
       proval. County plans     are updated annually. The State also meets on a monthly
       basis with the County Welfare Directors Association and its varous subcommt­
       tees to get their input into program policy development and decision makng.

       Varations of this pattern are used by those programs which allow flexibility to
       the local level State welfare offices. For instance , in Florida the State detennnes
       program policy, guidelines and goals. Within those centrally detenned parame­
       ters the State s 11 geogrphic distrcts develop implementation plans. The central
       State welfare office monitors the implementation of these plans to ensure that
       they meet Federal and State requirements.

       A few of the progrs also report meeting with local level State offces and com­
       munity representatives while developing or during the course of their program.
       For example , the State Welfare Commissioner of Massachusetts convenes
       monthly meetings of the directors of the State s 57 local welfare offices. The all-
       day meeting includes discussion of ET Choices perfonnance and planning issues.

       The greatest area of varation between local level offices is in the provision of ser­
       vices. States generally detennine centrally the basic menu of services to be of­
       fered , but allow the local offces or regions to detennine how best to provide the
       service. The local offices often decide how to strcture the services and whether
       they should be provided in house or by contract.

The program administrators stressed the importance of constructing work programs in
       relation to specifc State and local characteristics.
       We asked the program administrators what types of infonnation ar needed to con­
       strct a JOBS program. Drawing on their experience with their pre- JOBS pro­

       grams , they first came up with a list of infonnation points they would insist upon
       knowing before undertaking a JOBS program. The point which came up most
       often was the extent of administrative and legislative support for the program.
       Another point that was strssed was knowing the purpose of the program and the
       goals it would be expected to achieve. Other issues mentioned include: available
       financial resources; how the State has dealt with social issues; the extent of the
       provider community; the level of commitment from other Government agencies
       and community resources; what related services are currently being provided
       who is doing it, and what can/wil they do for JOBS parcipants.

        Before designing the progrm , the program administrators felt they would need to
        know a number of different client characteristics. These would help them deter­
        mine the needs of the client population and thus the proper emphasis for the pro­
        gram. They were paricularly interested in the client population s numbers to be
        served by: education level , geographic distrbution , job skils , employment expe-




Working Toward JOBS                            Findings
                                                     , "





       rience , number and age of children , proporton of AFC- Unemployed Parent to
       single parent famlies, languages, refugee status , and length of spell on AFC.
       When developing their pre- JOBS work programs, many of the progrm adminis­
       trators sought this infonnation though a review of a sample of AFC income
       maintenance case files. One State, California, reponed that they also conducted a
       telephone surey of a sample of AFC clients.

       Most States detennned education level by last grde completed. Delaware , how­
       ever, discovered that could be misleading. When they gave an assessment test to
       a sample of their clients, they discovered that education levels were much lower
       than judged under the last grade completed standard. The realization that educa­
       tion levels were lower than previously believed, led the Delaware program to
       place more emphasis on adult basic education.

       Other State characteristics that the program administrators felt greatly effect
       program design are the S tate and local economy, labor market and child care re­
       sources. The program administrators felt that to be effective, a program must
       know what kinds of skils ar   needed in   the marketplace in order to plan appropri­
       ate training.

These programs acknowledge the importance of the line worker and strve to enhance
       their effectiveness.


       Throughout our discussions the program administrators stressed that the line
       worker, as the Nebraska progr administrator said, " can make or break a pro­
       gram. " The program director from Michigan crystallzed this point , when he said
        Employment and training is an an. There is no question about its being the peo­
       ple that are doing the program ar the program. And I think more and more there
       has to be the understanding that those folks that are doing it are the ones that
       make it a viable program.

       The program administrJtors also agreed on what makes a good line worker. As
       the Florida program administrator explained By goo people I am not saying
       that you hire people with a certin degre or a certin educational background or
       even a certain experience background. It' s a question of commitment. It' s a ques­
       tion of having a feeling for what it is we are tring to do. Having some kind of al­
       most spirtual or religious commitment to the idea of really helping people get the
       Government off their back." As the Massachusetts program administrator said
         Attitude is key.

       This confIrmed our observations at orientation and group job search sessions
       where parcipant response seemed closely linked to the line worker s ability to
       project enthusiasm. We were , at one site, given the opportunity to talk with mem­
       bers of a job club about what they liked best about the club and what they thought




Working Toward JOBS                           Findings
       made the biggest difference. They had nothing but praise for their job club leader
       and al agreed that it was their leader that made the club a success.

       We asked the program admistrators how they create and foster line worker atti­
       tudes that lead to the success of the program. Each of the programs attempts to
       do this in a varety of ways. The San Diego County program administrtor men­
       tioned many of these methods when he said, " We provide a lot of high visibilty.
       We provide a lot of pep tals. We provide certficates. We tr to take people out
       even for local conferences within the county or to offer them some special train­
       ing.

       What we heard most often was the importance of recognizing achievement and
       giving awards. The California progr administrtor explains, " The fight is how
       do you keep that enthusiasm up among your workers and how do you build their
       self esteem as a worker just like you have to keep up the enthusiasm of the cli­
       ents. So you have got to be doing the same things for the worker, almost, that
       you do for the clients   which is catching people doing something good instead
       of doing something bad. Recognizing the positive so you can keep them excited.

       Building a sense of ownership and team spirit was another important issue. The
       program administrators said they tred to do this in a varety of ways. Many of
       the program managers said that local level flexibility and including the line work­
       ers in decision making ar the most important ways to create a sense of owner­
       ship. Newsletters featuring stories from successful clients and visits from
       successful clients, were frequently mentioned. Two of the programs require that
       workers wear program pins. Two States have sponsored birthday paries for their
       work program.

       Echoing the views of many, the Massachusetts program administrator said, " Atti­
       tude is key and attitude stas at the top. " Most of the program administrators said
       that their Governor and deparment heads had made visits to local offces and
       stressed the importance of the work program. The Washington program adminis­
       trtor said, the Governor and deparment heads " would fly to each new site and
       the offce would have a little pary for them. ... To have them go out and literally
       do ribbon cutting and say this is a really important offce has done wonders. " The
       program administrtors saw a great benefit to this , as the Nebraska program ad­
       ministrator said " You really can tell the difference when the top gets involved.

        While we principally discussed the importance of the work progrm staff, many
        of the program administrators emphasized that all welfare office staff need to be
        aware of the program and work for its success. This includes everyone from the
        income maintenance staff to the receptionist at the door. The program administra­
        tors said that it was paricularly important to include non-work program staff in
        awards ceremonies and share client success stories with them.




Working Toward JOBS                           Findings
           Eight States were selected through a two-tier process. The first tier was de­
           signed to insure that the programs studied would all be mature programs from
           which model practices could be derived. The second tier analysis was per:'
           formed so that the final sample would include programs which are diverse in
           strcture and circumstance. This was done so that study findings would have
           meaning for States with disparate goals, circumstances and resources.

Tier I


           In the first tier we crated a sample of those States which have faily matu, com­
           prehensive and well-regarded work progrs for AIC recipients. This sample
           was drawn from suggestions made in interviews with the American Public Wel­
           far Association , the National Governors Association , and members of the JOBS
           Advisory Group (JAG). The States in this initial sample were: CA , cr, DE , FL
               , n. , lA , KS, MD , MA , MI , MN, NE, NJ, OR , OK , OR , PA , WA , and WI.

Tier II


           The initial sample was refined to a final sample of eight States which var      cer­
                                                                                          by
           tan characteristics. So that site visits could be conducted in a timely manner, two
           States were selected immediately. Those States , Massachusetts and Oklahoma,
           were selected because of their prominence in the field and the contrsts between
           their program.

            To aid in selecting the remainder of the final sample, the JAG developed the fol­
            lowing list of characteristics by which programs in the final sample should var.

State descriptors: 
          Geography and State economic conditions.

State AFDC program descriprors: 
            Caseload , benefit levels , and whether State AFC pro-
            gram has an Unemployed Parnt          component.


State AFDC work program descriprors: 
                                 State dollars spent , vol­
                                                  Admistrative strctur ,
            untar or mandatory nature of progr, program components, support services,
            service providers, number of panicipants , percentage of urban vs. rual panici­
            pants , and taget groups.

            To determe the characteristics of the States in the initial sample, we conducted
            telephone interviews. A summar report and chans showing the varations on cer­
            tain key charcteristics were distrbuted to members of the JAG. The JAG met to
            consider the findings and offer advice on the selection of a final sample.

The States participating are: 
            , DE , FL, MA , MI , NE , OK and WA.




Working Toward JOBS                                   Appendix
